   United States Department of Agriculture
   Office of Inspector General




The Farm Service Agency's Farm Storage
Facility Loan Program




                                             Audit Report 03601-0001-32
                                             June 2012
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250



DATE:          June 18, 2012

AUDIT
NUMBER:        03601-0001-32

TO:            Bruce E. Nelson
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Farm Storage Facility Loan Program


This report presents the results of our audit of the Farm Storage Facility Loan Program. The
agency’s June 5, 2012, written response to the official draft report is included in its entirety with
excerpts and the Office of Inspector General’s (OIG) position incorporated into the relevant
sections of the report. Based on your response, we accept management decision on
Recommendations 1, 2, 3, and 4 in the report. Management decision has not been achieved for
Recommendation 5. To reach management decision on Recommendation 5, please see the
relevant OIG Position section in the audit report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendation for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Section 1: Farm Storage Facility Loans................................................................4
   Finding 1: FSA Needs to Reconsider How It Delivers the Farm Storage
   Facility Loan Program .........................................................................................4
         Recommendation 1 ........................................................................................6
         Recommendation 2 ........................................................................................7
         Recommendation 3 ........................................................................................7
         Recommendation 4 ........................................................................................8
         Recommendation 5 ........................................................................................8
Scope and Methodology.........................................................................................10
Abbreviations .........................................................................................................12
Exhibit A: Summary of Monetary Results ..........................................................13
Exhibit B: Loan Processing and Approval Audit Sites ......................................14
Exhibit C: Loan Servicing Audit Sites .................................................................16
Exhibit D: Statistical Plan – Sampling Methodology .........................................17
Agency’s Response .................................................................................................19
The Farm Service Agency’s Farm Storage Facility Loan Program

Executive Summary

The United States Department of Agriculture’s (USDA) Farm Service Agency (FSA) operates
the Farm Storage Facility Loan Program so that producers may have access to available funds for
financing storage and handling facilities. Producers might use these loans to construct structures
for grain as well as hay, renewable biomass, fruits and vegetables, and cold storage facilities
which were added by the 2008 Farm Bill.1 In fiscal year 2010, FSA approved and disbursed a
total of 1,608 loans in 41 States totaling $101.7 million. The Office of Inspector General (OIG)
initiated this review to evaluate FSA’s controls over the processing, approval, and servicing of
these loans.

Based on our review of how FSA approved and processed 30 loans totaling $4.89 million, as
well as how the agency serviced 10 delinquent loans totaling $728,078, we found that FSA
county employees did not always process, approve, and service these loans according to the
agency’s policies and procedures. For the 30 loans where we reviewed how FSA employees
approved and processed the loans, we found that 25 loans (83 percent) totaling $4.08 million had
errors. These errors included the agency approving loans without having documentation on file
to support borrower eligibility, making obligations that exceeded allowable amounts, and
disbursing loans without sufficient documentation to support final facility costs or adequate
release of liability.2 Likewise, based on our review of how FSA serviced 10 delinquent loans,
we found that all 10 loans were not serviced properly. FSA county employees offered various
explanations for the errors, including stating they misunderstood or were unaware of changes in
FSA’s procedures, they did not have the staffing to properly follow procedures, or they simply
made a mistake. Of the loans totaling $5.6 million ($4.89 million plus $728,078) that we
reviewed, FSA made almost $2.2 million in unsupported disbursements.

In 2001, FSA considered changing the Farm Storage Facility Loan Program from a direct loan
program, where FSA employees perform most of the work of approving, processing, and
servicing loans, to a guaranteed loan program, where lender employees perform this work and
USDA guarantees the loans against loss. However, FSA decided against it, citing concerns
about how the program would operate and that the program could prove to be very costly
compared to the current program.

The Secretary announced in January 2012 that FSA will soon be undergoing a major
restructuring, intended to build a modern and efficient agency by consolidating offices and
reducing staff. While these decisions respond to the realities of USDA’s current and future
budgetary circumstances, the consequences for FSA will likely mean that the agency will be
forced to accomplish many of its program objectives with fewer employees.




1
 Food, Conservation, and Energy Act of 2008.
2
 A release of liability is necessary to protect the Commodity Credit Corporation and the farm storage farm loan
applicant from the mechanic’s lien or other liens and claims arising against the contractor or subcontractors.

                                                                         AUDIT REPORT 03601-0001-32               1
We believe that, given the results of our audit, as well as the future restructuring of the agency,
FSA should consider a change to a guaranteed loan program. Since FSA is likely to see changes
in its staffing in the coming years, OIG believes the agency should seek an Office of the General
Counsel opinion regarding whether the program can, consistent with the law, be changed to a
guaranteed loan program, rather than remain a direct loan program. If FSA decides that the Farm
Storage Facility Loan Program will continue as a direct loan program run by its own employees,
then it should devise ways to strengthen the oversight and accountability of the program and
improve its employees’ skills at approving, processing, and servicing these loans.

Finally, we evaluated whether FSA effectively implemented the changes to the program
mandated by the 2008 Farm Bill. We found FSA has issued notices to its offices notifying them
of changes to the Farm Storage Facility Loan Program, as mandated by the 2008 Farm Bill. We
reviewed and compared the notices to the revised FSA handbook. We determined that all those
notices were incorporated into the handbook, and we have no findings on this issue.

Recommendation Summary
Obtain an Office of the General Counsel opinion to determine if the current law allows the
program to be delivered as a guaranteed loan program.

If FSA does not change the program to a guaranteed loan program, then develop and implement
a plan to strengthen the oversight and accountability of the program.

Recover the unsupported disbursements totaling almost $2.2 million that are still outstanding.

Agency Response
In its written response to the official draft dated June 5, 2012, FSA agreed with the audit findings
and recommendations. Excerpts from the response and OIG’s position have been incorporated
into the relevant sections of the report. The written response is included in its entirety at the end
of the report.

OIG Position

We accept FSA’s management decision for Recommendations 1, 2, 3, and 4. Although we agree
with the planned corrective action for Recommendation 5, FSA needs to provide OIG with a
copy of the bill for collection for unsupported disbursement amounts owed to the Government and
support that the amounts have been entered as a receivable on FSA’s accounting records. If final
action occurred, evidence of collection would suffice.




2    AUDIT REPORT 03601-0001-32
Background and Objectives

Background
On February 2, 2000, the Secretary announced the availability of financing for farm storage and
handling facilities. The Farm Service Agency (FSA) was authorized to implement the Farm
Storage Facility Loan Program through the United States Department of Agriculture’s (USDA)
Commodity Credit Corporation. Eligible producers could apply for farm storage facility loans at
their FSA administrative county office. Producers requesting loans must provide information
regarding the need for farm storage capacity and the storage facility that is proposed to be
constructed. The producers must also establish that they are eligible for the program, and that
the site proposed for a storage structure does not adversely impact the environment.

The Food, Conservation, and Energy Act of 2008 (the 2008 Farm Bill) added hay and renewable
biomass as eligible commodities, extended the maximum loan term to 12 years, and increased
the maximum loan amount to $500,000. The Farm Bill also added fruits and vegetables
(including nuts) as eligible facility loan commodities, and added cold storage facilities as eligible
facilities, pursuant to discretionary authority in the 2008 Farm Bill. The Farm Bill clarified
requirements for loan security and allowed for a partial loan disbursement during construction if
certain conditions are met.

Based on a Departmentwide review of operations conducted as part of the Administration’s
Campaign to Cut Waste, the Secretary announced USDA’s Blueprint for Stronger Service in
January 2012. According to that blueprint, over the past 3 years, USDA’s Farm and Foreign
Agricultural Services Mission Area has worked hard to do more with less. To manage current
and future budget challenges, and to ensure critical investments in rural America continue, the
mission area has taken a variety of steps to cut costs and improve services. Specifically, the
mission area plans to restructure FSA by consolidating 131 offices and reducing the overall staff
working for the agency. In many cases, offices recommended for closure are either not staffed or
are staffed with just one or two employees, and are located within 20 miles of other offices.

Objectives
Our objective was to evaluate FSA’s controls over the processing, approval, and servicing of the
Farm Storage Facility Loan Program. We also evaluated whether FSA effectively implemented
the changes to the program mandated by the 2008 Farm Bill.




                                                                AUDIT REPORT 03601-0001-32         3
Section 1: Farm Storage Facility Loans

Finding 1: FSA Needs to Reconsider How It Delivers the Farm Storage
Facility Loan Program

Given the long-term plans for consolidating FSA offices and reducing the agency’s overall
staffing, FSA should consider whether the Farm Storage Facility Loan Program should continue
as a direct loan program. The program might be better operated as a guaranteed loan program,
where much of the loan making and servicing work is performed by private lender employees.
Based upon our review of how FSA approved and processed 30 loans totaling $4.89 million, we
found that 25 loans (83 percent), totaling $4.08 million, had errors. These errors included the
agency approving loans without having documentation on file to support borrower eligibility,
making obligations that exceeded allowable amounts, and disbursing loans without sufficient
documentation to support final facility costs or adequate release of liability. Similarly, based on
our review of how FSA serviced 10 loans totaling $728,078, we found that all 10 delinquent
loans were handled incorrectly. FSA county employees offered various explanations for the
errors, including stating they misunderstood or were unaware of changes in FSA’s procedures,
they did not have adequate staffing to properly follow procedures, or they simply made a
mistake. By changing the direct loan program to a guaranteed loan program—where private
lender employees are responsible for making and servicing loans—FSA can devote its resources
to other programs. Of the loans totaling $5.6 million ($4.89 million plus $728,078) that we
reviewed, FSA made almost $2.2 million in unsupported disbursements.

At present, FSA retains direct authority and responsibility for processing and approving loan
applications as well as servicing loans. For approving loans, this responsibility includes, but is
not limited to, ensuring borrowers meet all eligibility requirements, loan obligation amounts are
properly limited, and all disbursements meet requirements.

We found, however, FSA county employees were not always meeting the agency’s requirements
for approving 25 of these 30 loans (several loans had multiple approval errors):

    ·    13 loans totaling $2 million did not meet FSA’s eligibility requirements because 5 loans
         did not have documentation of an adequate financial analysis addressing the borrower’s
         creditworthiness, 7 loans did not have the required documentation regarding the flood
         hazard determinations, and 4 loans did not have the required documentation to support
         the structural insurance requirement.

    ·    7 loan obligations exceeded the allowable percentage of the estimated net cost of the
         applicant’s needed storage or handling equipment, which is 85 percent or less.3 County
         office personnel misunderstood and misapplied this rule to all seven loans, and those loan
         obligations exceeded the estimated net cost by $50,206. However, the loan
         disbursements were made based on the actual final costs.



3
 FSA Handbooks 1-FSFL, amendment 22, paragraph 15C, dated August 4, 2004, and 1-FSFL (Revision 1),
amendment 1, paragraph 25B, dated May 12, 2010.

4       AUDIT REPORT 03601-0001-32
    ·    22 loans had disbursements that were unsupported due to a lack of sufficient
         documentation for final facility costs or adequate release of liability.4 FSA employees
         did not follow procedures for ensuring the acceptable cost documents or sufficient
         releases of liability were obtained. In some cases, we found there were either no invoices
         or unsigned invoices when a signature was required, or the release of liability was
         insufficient to cover all the final facility costs. For these 22 loans with unsupported final
         facility costs totaling almost $2.2 million, FSA should obtain documentation to support
         the disbursements. If it cannot, then it should recover the unsupported disbursements that
         are still outstanding.

For servicing loans, FSA is responsible for ensuring that the collateral for the loans is well
maintained and also for taking action if borrowers fall behind on their payments. In this part of
our review, we selected and reviewed 10 loans totaling $728,078 that were past due by about
$117,000.

We found that FSA did not follow the agency’s procedures when servicing these 10 loans
(several loans had multiple approval errors):

    ·    6 loans did not have sufficient documentation that the loan collateral was being
         adequately maintained. FSA county employees did not always perform collateral checks,
         retain documentation of real estate taxes being paid, ensure adequate insurance coverage,
         or ensure security filings were proper. As a result, FSA has reduced assurance that loans
         were being serviced in compliance with procedures.

    ·    7 loans did not have proper notifications of servicing actions. If borrowers become
         delinquent, then the agency is required to take a number of different actions, such as
         mailing out demand or liquidation letters, and offsetting other payments. FSA county
         office employees did not send service notification letters to borrowers in a timely manner,
         did not correctly approve later payment dates, and could not support that steps had been
         taken to offset other payments.

    ·    4 loans were not actually delinquent, but FSA reports showed the loans as delinquent
         because FSA county office employees did not correctly update information in their
         database.

Most FSA county and State offices received training on the Farm Storage Facility Loan Program.
However, some county office personnel felt the training could be improved. County office
personnel stated that the program was difficult to administer due to the number of program
requirements that need to be performed, and it is challenging to stay current on the procedures
when processing only one or two loans every year or two. Further, we confirmed that the agency
was identifying the same weaknesses in its county operations review program assessments of the




4
 A release of liability is necessary to protect the Commodity Credit Corporation and the farm storage facility loan
applicant from the mechanic’s lien or other liens and claims arising against the contractor or subcontractors.

                                                                          AUDIT REPORT 03601-0001-32                  5
Farm Storage Facility Loan Program, but the results of those reviews were not significant
enough to be included in its national county operations review program reports.5

During the course of the audit, we have communicated with FSA officials regarding what
weaknesses have been identified and how to prevent similar weaknesses from occurring in the
future. When we asked an Office of the General Counsel official whether the weaknesses
identified were critical to protecting the Government’s interest, we were told that since FSA
management has established the controls in the procedures, the controls must be important; thus,
FSA should enforce adherence to those procedures. FSA national officials have concurred with
the identified weaknesses and have taken some corrective actions, including issuing notices to
their employees to clarify agency procedures. FSA generally agreed with our findings.

At present, OIG maintains that, given the rate of error we found with how FSA employees
approved and processed loans as well as serviced loans (83 percent for our approval and
processing sample, and 100 percent for our servicing sample), the agency needs to reconsider
how it delivers the program. We realize that FSA previously considered changing the Farm
Storage Facility Loan Program from a direct loan program to a guaranteed loan program.
However, FSA decided against it, citing concerns about how the program would operate and that
the program could prove to be very costly compared to the current program. Since FSA is likely
to see changes in its staffing in the coming years, OIG believes the agency should strongly
consider seeking an Office of the General Counsel opinion regarding whether the program can,
consistent with the law, be changed to a guaranteed loan program, rather than remain a direct
loan program. If this is not feasible, then FSA should devise ways to strengthen the oversight
and accountability of the program and improve its employees’ skills at approving, processing,
and servicing these loans.

Recommendation 1
Obtain an Office of the General Counsel opinion to determine if the current law allows the
program to be delivered as a guaranteed loan program.

Agency Response
The Office of the General Counsel was contacted on April 20, 2012, for a legal opinion to
determine if the current law allows the Farm Storage Facility Loan Program to be delivered as a
guaranteed loan program. The Office of the General Counsel has determined that the program
will continue to be administered using direct loans. Guaranteed loans are not authorized.

OIG Position
We accept FSA’s management decision on this recommendation.


5
 An analysis of common findings was completed only for those operations or programs where at least 50 county
operations review program reports had been issued in a fiscal year. A common finding is defined as a procedural
error applicable to an operation or program reported in at least 15 percent of the reports issued for that operation or
program in a fiscal year.

6      AUDIT REPORT 03601-0001-32
Recommendation 2
If the result of Recommendation 1 does not allow a guaranteed loan program, or if FSA chooses
not to implement one, then develop and implement a plan to strengthen the oversight and
accountability of the program.

Agency Response
To improve FSA employees’ skills at approving, processing, and servicing farm storage facility
loans, the national office will provide Farm Storage Facility Loan Program training on or before
July 2, 2012, and annually thereafter. A list of all employees who complete the training will be
maintained. If necessary, video training conference training sessions will be conducted to review
ongoing Farm Storage Facility Loan Program policies and procedures.

Further, the national office will:
   · require new employees with the primary responsibility of farm storage facility loans to
       complete the program training the earlier of 30 calendar days after their start date, or
       before completing their first farm storage facility loan.
   · monitor Farm Storage Facility Loan Program County Operations Review findings. The
       national office will frequently determine if Farm Storage Facility Loan Program policy
       should be strengthened and/or clarified based on newly reported County Operations
       Review findings. The national office will also work with the applicable State offices to
       ensure that approved corrective action plans associated with the county offices reviewed
       are completed in a timely manner.
   · conduct annual national office review of farm storage facility loans. The State and
       county offices will be reviewed on a rotational based, and the loan files will be reviewed
       at the national office.

OIG Position
We accept FSA’s management decision on this recommendation.

Recommendation 3
If FSA does not deliver the program as a guaranteed loan program, amend FSA
Handbook 1-FSFL (Revision 1) to incorporate interim notices including eligibility requirements,
obligation requirements, final facility costs, release of liability documentation, and servicing
delinquent loans.

Agency Response
FSA has amended FSA Handbook 1-FSFL (Revision 1) to incorporate notices. Additionally, the
agency will develop a servicing checklist to assist with farm storage facility loan actions related
to the lack of collateral checks, documentation of real estate taxes being paid, adequate insurance
coverage, security instrument filings, and proper notifications. The servicing checklist will be
issued by October 1, 2012.

                                                              AUDIT REPORT 03601-0001-32         7
OIG Position
We accept FSA’s management decision on this recommendation.

Recommendation 4
If FSA does not deliver the program as a guaranteed loan program, conduct additional training
on the critical program requirements.

Agency Response
A video teleconference will be held with all State Executive Directors and applicable State office
staff with Farm Storage Facility Loan Program assigned responsibilities to review the audit
report’s findings. The national office will instruct State offices to conduct annual Farm Storage
Facility Loan Program training to address Farm Storage Facility Loan Program policy, the audit
report’s findings, and required corrective actions with county offices and District Directors, and
to perform annual reviews of county office disbursed farm storage facility loans and report to the
national office the review findings and corrective action taken. The national office will select a
sample of the State office annual reviews. The estimated completion date is June 29, 2012.

OIG Position
We accept FSA’s management decision on this recommendation.

Recommendation 5
Review the unsupported disbursements totaling almost $2.2 million and recover any unsupported
disbursements that have not been paid in full.

Agency Response
Memorandums from the national office will be issued to the State Executive Directors
instructing the State offices to work with the applicable county offices to collect from the Farm
Storage Facility Loan Program producers the required documentation to support the disbursed
farm storage facility loans. The memorandums will provide corrective actions needed to resolve
the findings and instructs the State offices to provide evidence to the national office within
30 calendar days after the date of the memorandum. The national office will conduct a video
teleconference with the State Executive Directors and applicable State Office Price Support
Specialists to review required corrective actions to resolve the unsupported disbursements. The
estimated completion date is July 30, 2012.




8    AUDIT REPORT 03601-0001-32
OIG Position
Although FSA agreed with the recommendation, we need additional information before
management decision can be accepted. FSA needs to provide OIG with a copy of the bill for
collection for unsupported disbursement amounts owed to the Government and support that the
amounts have been entered as receivables on FSA’s accounting records. If final action occurred,
evidence of collection would suffice.




                                                              AUDIT REPORT 03601-0001-32          9
Scope and Methodology
We conducted our audit of the Farm Storage Facility Loan Program with FSA’s national office
personnel in Washington, D.C., and FSA State and county office personnel from 19 State offices
and 38 county offices (see exhibits B and C). We performed audit fieldwork between
October 2010 and November 2011.

We obtained and analyzed the State Office Reporting System loan data file from FSA as of
November 2, 2010. We did not evaluate the effectiveness of the information system or its
controls, as it was not used extensively throughout the farm storage facility loan approval
process that was under review. The information system was not relied upon to obtain sufficient,
appropriate evidence to support the findings presented in this report. For loan processing and
approval review, the loan universe consisted of 1,608 loans in 41 States totaling $101.7 million
that were approved and disbursed in fiscal year 2010.

For the loan approval review, we divided the universe into three strata—first stratum loans of
$500,000 (5 loans), third stratum loans of less than $100,000 (1,378 loans), and second stratum
loans falling between these amounts (225 loans). We selected all of the $500,000 loans and
randomly selected 75 loans from the second and third strata for a total of 105 loans in 31 States
totaling $11.4 million (11.2 percent of the dollars in the universe) for review (see exhibit D). We
then judgmentally selected a sample of 25 of the 75 loans from the second and third strata
considering the number of loans in each stratum and sequential order in each stratum. The
survey sample represented all 5 $500,000 loans, 8 loans from the second stratum, and 17 loans
from the third stratum for a total of 30 loans in 19 States totaling $4.9 million. We did not
review the remaining loans in the universe because of the high error rate found in the sample of
loans reviewed. Therefore, we did not make statistical projections.

For the delinquent loan servicing review, the universe consisted of 196 loan payments that were
past due as of the last fiscal year 2010 monthly delinquency report, dated September 17, 2010,
with past due payments totaling $1.1 million. We judgmentally selected a sample of 10 loans
totaling $728,078 with payments at least 90 days past due totaling about $117,000 for review.
The basis of the selection excluded (1) delinquent loans that were in bankruptcy, (2) loans that
were known not to be delinquent due to software issues, or (3) loans of very small amounts. We
selected delinquent loans that were in States where we had already selected loans for the
processing and approval phase of our review.

To accomplish our objectives, we assessed the program’s policies and procedures, as well as its
internal controls. We identified key controls over the processing, approval, and servicing of
farm storage facility loans based on our review of agency policy and procedures and discussions
with FSA officials. With cooperation from FSA personnel, we requested the selected borrower
files for copying and then returned the files to the respective county office. We performed loan
file reviews and documented the results of our review in proformas. We did not conduct site
visits to inspect the facilities under loan or interview borrowers because the weaknesses
identified in our review did not warrant such visits or interviews. As we identified potential
issues, we followed up with FSA personnel at the county, State, and national office levels.



10     AUDIT REPORT 03601-0001-32
We found FSA has issued notices to its offices notifying them of changes to the Farm Storage
Facility Loan Program, as mandated by the 2008 Farm Bill. We reviewed and compared the
notices to the revised FSA handbook. We determined all those notices were incorporated into
the handbook.

Based on its risk assessments, FSA has determined that the Farm Storage Facility Loan Program
is at low risk for improper payments. Since FSA does not calculate a farm storage facility loan
delinquency rate, we obtained and analyzed the monthly delinquency reports for fiscal
years 2009 and 2010. We calculated the fiscal years’ 2009 and 2010 delinquency rates to be
0.5 and 0.66 percent, respectively. We concluded that the delinquency rates are low.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on the audit objective. The evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                           AUDIT REPORT 03601-0001-32          11
Abbreviations
2008 Farm Bill ............ Food, Conservation, and Energy Act of 2008
FSA ............................. Farm Service Agency
OIG ............................. Office of Inspector General
USDA.......................... United States Department of Agriculture




12     AUDIT REPORT 03601-0001-32
Exhibit A: Summary of Monetary Results
The table below summarizes the monetary results for the audit report by finding number.

Finding    Recommendation          Description         Amount              Category
                                   Unsupported                         Unsupported Loans,
   1                5                                 $2,199,728
                                  Disbursements                      Recovery Recommended




                                                          AUDIT REPORT 03601-0001-32      13
Exhibit B: Loan Processing and Approval Audit Sites
The table below presents information about the loan processing and approval sites including loan
count, State, county, loan amount, and office location.
  Loan Number              State              County    Loan Amount            Location
Loan 1              Alabama               Lawrence            $500,000 Moulton, AL
Loan 2              Alabama               Cullman               29,141 Cullman, AL
                         Alabama State FSA Office                      Montgomery, AL
Loan 3              Arkansas              Randolph             500,000 Pocahontas, AR
                         Arkansas State FSA Office                     Little Rock, AR
Loan 4              Georgia               Lanier               146,606 Valdosta, GA
                          Georgia State FSA Office                     Athens, GA
Loan 5              Illinois              La Salle             100,000 Ottawa, IL
Loan 6              Illinois              Montgomery            29,261 Hillsboro, IL
                          Illinois State FSA Office                    Springfield, IL
Loan 7              Indiana               Howard               500,000 Kokomo, IN
Loan 8              Indiana               Warren                49,999 Williamsport, IN
                          Indiana State FSA Office                     Indianapolis, IN
Loan 9              Iowa                  O' Brien              35,138 Primghar, IA
                           Iowa State FSA Office                       Urbandale, IA
Loan 10             Kansas                Harvey                38,398 Newton, KS
                          Kansas State FSA Office                      Manhattan, KS
Loan 11             Kentucky              Logan                500,000 Russellville, KY
Loan 12             Kentucky              Logan                500,000 Russellville, KY
Loan 13             Kentucky              Hickman               69,105 Clinton, KY
                         Kentucky State FSA Office                     Lexington, KY
Loan 14             Louisiana             Richland             221,850 Rayville, LA
                         Louisiana State FSA Office                    Alexandria, LA
Loan 15             Minnesota             Hubbard              425,000 Park Rapids, MN
                        Minnesota State FSA Office                     St. Paul, MN
Loan 16             Mississippi           Coahoma              369,750 Clarksdale, MS
                        Mississippi State FSA Office                   Jackson, MS
Loan 17             Montana               Sheridan              81,000 Plentywood, MT
Loan 18             Montana               Teton                 33,493 Choteau, MT
Loan 19             Montana               Daniels               26,180 Scobey, MT
                         Montana State FSA Office                      Bozeman, MT
Loan 20             Nebraska              Wayne                 37,693 Wayne, NE
                         Nebraska State FSA Office                     Lincoln, NE
Loan 21             New York              Tompkins             107,000 Cortland, NY
                        New York State FSA Office                      Syracuse, NY
Loan 22             Oklahoma              Texas                 49,999 Guymon, OK
Loan 23             Oklahoma              Bryan                 40,580 Durant, OK
                        Oklahoma State FSA Office                      Stillwater, OK
Loan 24             Pennsylvania          Lancaster             38,396 Lancaster, PA
                      Pennsylvania State FSA Office                    Harrisburg, PA
Loan 25             South Dakota          Beadle               128,735 Huron, SD
Loan 26             South Dakota          Lake                  46,823 Madison, SD
Loan 27             South Dakota          Spink                 40,393 Redfield, SD
Loan 28             South Dakota          Brown                 35,973 Aberdeen, SD

14       AUDIT REPORT 03601-0001-32
  Loan Number        State             County    Loan Amount           Location
                 South Dakota State FSA Office                  Huron, SD
Loan 29         Tennessee         Lincoln               160,000 Fayetteville, TN
                   Tennessee State FSA Office                   Nashville, TN
Loan 30         Texas             Hill                   50,000 Hillsboro, TX
                     Texas State FSA Office                     College Station, TX
                 TOTAL                               $4,890,513




                                                   AUDIT REPORT 03601-0001-32         15
Exhibit C: Loan Servicing Audit Sites
The table below presents information about the loan servicing sites including loan count, State,
county, loan amount, and office location.

                                                      Loan
 Loan Number            State         County         Amount County Office Location
 Loan 1           Arkansas          Lee              $114,944 Marianna, AR
                 Arkansas State FSA Office                    Little Rock, AR
 Loan 2           Georgia           Miller             42,371 Colquitt, GA
 Loan 3           Georgia           Worth             143,447 Sylvester, GA
                 Georgia State FSA Office                     Athens, GA
 Loan 4           Indiana           St. Joseph         39,075 South Bend, IN
                 Indiana State FSA Office                     Indianapolis, IN
 Loan 5           Minnesota         Traverse           34,385 Wheaton, MN
 Loan 6           Minnesota         Stearns            49,555 Waite Park, MN
                Minnesota State FSA Office                    St. Paul, MN
 Loan 7           Mississippi       Claiborne          89,250 Fort Gibson, MS
                Mississippi State FSA Office                  Jackson, MS
 Loan 8           Montana           Sheridan           31,611 Plentywood, MT
                 Montana State FSA Office                     Bozeman, MT
 Loan 9           New York          Erie               14,180 East Aurora, NY
                New York State FSA Office                     Syracuse, NY
 Loan 10          Texas             Ellis             169,260 Waxahachie, TX
                  Texas State FSA Office                      College Station, TX
                     Total                           $728,078




16     AUDIT REPORT 03601-0001-32
Exhibit D: Statistical Plan – Sampling Methodology
OIG designed a sample to project noncompliance rates and associated dollar amounts in support
of the audit.

Objective:
This sample was designed to support the audit of FSA’s Farm Storage Facility Loan Program
(Audit Report 03601-0001-32). The sample objective was to project noncompliance rates and
associated dollar amounts in support of this audit.

Audit Universe:
Our universe consisted of 1,608 loans totaling $101,723,464.33. The audit team provided the
loan universe list to OIG statisticians. The team obtained the universe list from the FSA State
Office Reporting System.

Sample Design and Modifications:
Given the data structure diversity in the audit programs (data factors) and audit resource
requirements (resource factors), we developed several design types that helped us make informed
decisions about which of the designs would be feasible. For this audit, we considered a simple
random design, and a few two-stage sample designs using clustering and stratification. We had
no prior information, or historical data, to help us size our sample.

The audit team was interested in reviewing high-dollar-value loans. To ensure those were
captured by our sample, we stratified the audit universe and separated the high-dollar-value loans
in a census stratum. Stratum I included all loans valued at $500,000 or more. There were five
loans in this stratum and all five were to be reviewed (a census stratum). Stratum II included
loans $100,000 to $499,999. There were 225 loans in the second stratum and we selected 30 for
review. Stratum III included all remaining loans, valued at $99,999 or less. We selected 70 out
of 1,378 total loans in this stratum. The total sample size of our sample consisted of 105 loans
(all three strata combined) for review.

We had no information on which to base a sample size calculation. We used the following set of
criteria: an assumed error rate of 50 percent and desired precision of +/-10 for attribute measures,
at a 95 percent level of confidence. If a simple random sample was selected, this set of
conditions would require a sample size of 92 loans. Since we used a stratified sample design for
this audit, we increased the total sample size to 105 loans, expecting to again achieve
+/-10 percent precision at the 95 percent confidence level.

Results:
After reviewing 30 cases and finding exceptions for almost all cases, OIG management made the
decision to stop the review. Therefore, the entire sample was not reviewed and no projections
were made.




                                                             AUDIT REPORT 03601-0001-32           17
18   AUDIT REPORT 03601-0001-32
Agency’s Response




                  USDA’S
           FARM SERVICE AGENCY
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 03601-0001-32   19
United States
Department of
                     -
                     USDA



Agriculture
Farm and
                      DATE:          June 5, 2012
Foreign
Agricultural
Services              TO:            Director, Farm and Foreign Agriculture Division
Farm
                                     Office of Inspector General

                                                    Directo~
Service
Agency
                      FROM:          Philip Sharp,
Operations Review                    Operations Review andAillli)lSiSStaf
and Analysis Staff

1400fndependence      SUBJECT:       Response to Official Draft Report, Farm Storage Facility Loan Program,
Ave., SW
Stop 0540                            Audit 03601-0001-32
Washington, DC
20250-0541
                      The Deputy Administrator for Farm Programs has provided the information below which
                      responds to the subject's audit recommendations.

                      Recommendation 1

                      Obtain an Office of the General Counsel (OGC) opinion to determine ifthe current law
                      allows the program to be delivered as a guaranteed loan program.

                      Agency Response:

                      OGC was contacted on April 20, 2012, for a legal opinion to determine if the current law
                      allows the Farm Storage Facility Loan (FSFL) Program to be delivered as a guaranteed
                      loan program. OGC has determined that the FSFL program will continue to be
                      administered using direct loans. Guaranteed loans are not authorized. The OGC
                      legal opinion will be provided under separate cover.

                      Recommendation 2

                      If the result of Recommendation 1 does not allow a guaranteed loan program, or ifFSA
                      chooses not to implement one, then develop and implement a plan to strengthen the
                      oversight and accountability ofthe program.

                      Agency Response:

                      To improve FSA employees' skills at approving, processing, and servicing FSFL' s, the
                      National Office will provide AgLeam FSFL training on or before July 2, 2012; and
                      annually thereafter. A list of all employees that complete the training will be maintained.
                      If necessary, video training conference training sessions will be conducted by the Price
                      Support Division (PSD) to review ongoing FSFL policies and procedures.
Director, Farm and Foreign Agriculture Division
Page 2

The National Office will:

•	   require new employees with the primary responsibility of FSFL to complete the
     AgLearn FSFL training the earlier of 30 calendar days after their start date, or before
     completing their first FSFL.

•	   monitor FSFL County Office Review (COR) findings through the e-CORP system.
     The National Office will frequently determine if FSFL policy should be strengthened
     and/or clarified based on newly reported COR findings. The National Office will
     also work with the applicable State Offices to ensure that approved corrective action
     plans associated with the County Offices reviewed are completed in a timely
     manner.

•	   conduct annual National Office review of FSFLs. The State and County Offices will
     be reviewed on a rotational basis and the loan files will be reviewed at the National
     Office.

Additional details are provided in Recommendations 3,4, and 5.


Recommendation 3

If FSA does not deliver the program as a guaranteed loan program, amend FSA
Handbook 1-FSFL (Revision 1) to incorporate interim notices including eligibility
requirements, obligation requirements, final facility costs, release of liability
documentation, and servicing delinquent loans.

Agency Response:

The following table provides the National FSFL Notices and the Amendments to
Handbook 1-FSFL (Rev. 1):

 National FSFL Notice                                Handbook I-FSFL (Rev. I}

· FSFL-82, New Policy for FSFL Program Approvals     Amendment 6
  FSFL-80, FSFL Program Cost Certification and
  Disbursement Calculator
  FSFL-76, Authorized Methods for Determining FSFL   Amendment 4
  Real Estate Security Values


FSA Notices and Handbook Amendments will be provided under separate cover.
Director, Farm and Foreign Agriculture Division
Page 3

Additionally, PSD will develop a FSFL Servicing Checklist to assist with FSFL actions
to address the audit findings for the lack of collateral checks, documentation of real estate
taxes being paid, adequate insurance coverage, security instrument filings, and proper
notifications. The FSFL Servicing Checklist will be issued by October 1,2012.

Recommendation 4

If FSA does not deliver the program as a guaranteed loan program, conduct additional
training on the critical program requirements.

Agency Response:

A video teleconference will be held with all State Executive Directors and applicable
State Office staff with FSFL assigned responsibilities to review Notice FSFL-83 and
highlight specific findings to ensure consistency of corrective actions. The Executive
Summary ofOIG's Audit report will be reviewed in detail during the video
teleconference.

The National Office will instruct State Offices to:

•	   conduct annual FSFL training to address FSFL policy, review findings and required
     corrective actions with County Offices and District Directors.

•	   perform annual reviews of County Office disbursed FSFLs and report to the
     National Office the review findings and corrective actions taken. PSD will select a
     sample of the State Office annual reviews on a rotational basis for review at the
     National Office.

The estimated completion date is June 29, 2012

Recommendation 5

Review the unsupported disbursements totaling almost $2.2 million and recover any
unsupported disbursements that have not been paid in full.

Agency Response:

Memorandums from DAFP will be issued to the 19 State Executive Directors instructing State
Offices to work with the applicable County FSA Offices to collect from the FSFL producers
the required documentation to support the disbursed FSFL. The memorandums also provide
corrective actions needed to resolve the findings and instructs the State Office to provide
evidence to PSD within 30 calendar days after the date of the memorandum.
Director, Farm and Foreign Agriculture Division
Page 4

The National Office will conduct a video teleconference with the 19 SED's and applicable
State Office Price Support Specialists to review required corrective actions to resolve the
unsupported disbursements. The estimated completion date is July 30, 2012.
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency
  Attn: Agency Liaison Officer                                  (2)

Government Accountability Office                                (1)

Office of Management and Budget                                 (1)

Office of the Chief Financial Officer
  Attn: Director, Planning and Accountability Division          (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
